C2

IN THE
SUPREME COURT OF THE UNITED STATES

^EXITON^R
(Your Name)
vs.
T^re. S/nfe. o-P

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Tiig. 'Texas Court tCrfWjMql Zipper Is

FILED
MAR 0 2 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

frfumlae.ri<i Rodrigue^ Jr. fOt7R?3
(Your Name)
1-lagk-gs Umi; Rf.X box YYCO
(Address)

6qf&sVf/U.' Tar 7fe5~?7_______
(City, State, Zip Code)

_______ pJdNc_______
(Phone Number)

QUESTION(S) PRESENTED
Does the Supreme Court's Two-Step Test to determine [extra]territoriallity
it created in, RJR Nahisco V. European Cmty, 136 S.Ct. 2090, also apply to State
criminal cases to determine Subject-Matter Jurisdiction, i.e. whether a Tribunal
has the power to hear a case?

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Ex Parte Humberto Rodriguez,Dr., T.C.C.A. No.UR-81853-02
Rodriguez \J. State, 146 S.U.3d 674(TCCA 2004)
Rodriguez V. State, 13-00-00771(Tx.Ap.Ct. 13)

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:

hff\

The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A__to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
JXJ is unpublished.
The opinion of the
appears at Appendix

3

/•/fclctlgo
to the petition and is

X.

court

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
K1 is unpublished.
1.

___ i

JURISDICTION
[ ] For cases from federal courts: H.A •
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was Id'Z’b'XbZQ .
A copy of that decision appears at Appendix__A___
[ ] A timely petition for rehearing was thereafter denied on the following date:
tfom aila<o*A onhAhaos
and a copy of the order denying rehearing
appears at Appendix______ _
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

(2)

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

5

STATEMENT OF THE CASE

0>

REASONS FOR GRANTING THE WRIT

8

CONCLUSION

to

INDEX TO APPENDICES
APPENDIX A

Tx. Court of Criminal Appeals dismissal as successive ruling

APPENDIX B: State's Finding of facts and conclussion of lau

APPENDIX C: State Court's ruling on finding of facts and conclussions of lau

APPENDIX D: T.C.C.A. published ruling RODRIGUEZ \J. STATE, 146 S.U.3d 674
Reversing lauer Court's acquittal.
APPENDIX E: Thirteenth Court of Appeals Opinion acquital.ion murder charge,
Number 13-00-771-CR, unpublished.
APPENDIX F: Applicant's State urit of habeas corpus

(3)

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

R.3.R. Nabisco,Inc. V. European Cmty., 136 S.Ct. 2090(2016)

pg.6-7

Morrison V. Nat'l.Ausl. Bank Ltd., 130 S.Ct. 2869,2877(2010)

pg.0

Villanueva V. U.S., 743 F.3d 103(5th Cir.2014)

pg.B

Ex Parte, Humberto Rodriguez,Or. Tx.Cr.App. No.UR-01,853-02

pg.6-7

Rodriguez V. State, 13-00-00771 (Tx.App.Ct.13)

Appx. 4

STATUTES AND RULES
Tx. Penal Code 1.04(a)(1)

Jurisdiction

Tx. Penal Code 19.02 Murder
Tx. Penal Code 19.03 Capital Murder
Tx. Cd. Cr. App. Art.11.07(a)(2)

OTHER

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

HTH AMENDMENT SUBSTANTIVE DUE PROCESS
Applicant believes the State should apply a new TbJD-STEP TEST the Supreme
Court created to determine [extra]territoriallity, to his capital murder case
that will prove the State Courts had no power to hear the murder portion of his
case because the murder portion of the capital murder and all its elements took
place in Mexico by Mexican Nationals.
The test is not a new "rule" but clerifies existing Supreme Court rulings
previously cited by Applicant but ruled meritless by the State.

The State now claims the test does not apply to State criminal cases, and
was created using already existing Supreme Court cases, see Appx.pg.5-7,8.

STATEMENT OF THE CASE
Petitioner Rodriguez is not asking the Supreme Court to rule an the merits
of his case, which is a challenge to the State's highest Court of Criminal
Appeals' use of a State Territorial statute to gain extraterritorial subject
matter jurisdiction over his capital murder case which overturned the lower
13’th Court of Appeals' acquittal of the murder conviction due to lack of juris­
diction over the murder that occurred in Mexico.
Rodriguez is seeking relief on the merits from the Texas Court of Criminal
Appeals in a second habeas corpus by asking them to apply the Supreme Court's
two-step test for extraterritoriallity it created in the R.J.R. Nabisco casec
in 2016 that did not exist when they reviewed the same issue in his first writ
in 2014, calling the lack of subject matter jurisdiction issue meritless. The
T.C.C.A. has never acknowledged the [extra]territorial issue of this case, and
now claims the two-step test does not apply to state criminal cases. Rodriguez argues that by applying the two-step test that the Supreme Court
created to clerify extraterritoriallity, it will be proven that the 13th Court
of Appeals was correct in its ruling that the state capital murder statute's
first requirement is to determine whether a murder occurred under the require­
ments of the state murder statute. It found the state could not even investigate
the murder because no cause or.result took place in the U.5., therefore the
state could not have subject matter jurisdiction-over the murder and they acquitted.
On State's P.D.R. the T.C.C.A. reversed the accuittal by ruling the State's
Jurisdiction statute, Tx. Penal Code 1.04(a)(1) provides for territorial juris­
diction ”if the conduct or result that is an element of the offense occurs inside
this state." They then rule capital murder is the crime and kidnapping is a
lesser included offense of capital murder and that element occurred in Texas,
so the state has jurisdiction over the murder in mexico. This ruling negates
the capital murder statute's first requirement that a murder must first occur
under the state's murder statute. That is impossible to determine when there
can be no investigation because Texas law enforcement had no jurisdiction to
opporate in Mexico. As for the kidnapping, the State alleged the kidnappers picked up the vehicle they used to abduct the victim at a mobile home where
this Applicant sometimes stayed, therefore he must have supplied it and is an
accomplice to the kidnapping even if not one of the kidnappers, so he is also
responsible for the murder that later occurred in Mexico. Nothing was proven.

(D

(0

The trial proved the murder was committed by four Mexican Nationals in Mexico,
and the kidnapping was financed by and the vehicles' supplied by an Oscar Rodriguez,
not known by or related to Humberto Rodriguez or his family. This Applicant
filed a seperate State kidnapping writ that clearly proved all of that but the
:siate-Tefused to review it.
Petitioner Rodriguez believes by applying the Supreme Court's two-step test
to the focus crime of murder as the second step requires, and as the state's
capital murder statute requires, it will prove the murder was[extraterritorial
no matter the lower offense of kidnapping that occurred in Texas. The test will
show the state territorial statute, Penal Code 1 .D4, does not confer[extra]territoriallity thus failing the first prong of the test, as does the indictment
itself because it alleged the kidnapping and murder occurred in Hidalgo County,
Texas.
Now the Supreme Court is petitioned to decide if their Two-Step test for
extraterritoriality should be applied to this Petitioner's case by the Texas
Court of Criminal Appeals to determine if the state the power to try him for
murder as the 13th Court of Appeals ruled it did not. To do that it must first
determine whether their two-step test pertains to state criminal cases and a
state court's power to hear a case. If it does, the Court should remand.
Appendix B and C are the State's response to Applicant's writ, in which
they intentionally mislead and misstate the facts of the case and the one ground
for relief argued by Applicant. Applicant's writ is Appx.F. The state argues
why under Texas law the habeas corpus is successive, but fails to cite the law
why it is not. TX.CD.CR.PROC. ART.11.07 4(a)(2) states;"by a preponderance of
the evidence but for a violation of the U.S. Constitution, no rational juror
could have found the Applicant guilty beyond a reasonable doubt."
Applicant argues the State violated the Substantive Due Process Clause of
the 14th Amendment when it tried him for a murder Mexican Nationals committed
in their own country, then ratified it by ruling a state territorial statute
allows jurisdiction because the victim was kidnapped in the U.S., and now the
State refuses to apply a new Supreme Court test to prove they were wrong. All
why refuseing to admit the issue is extraterritorial not territorial.
(2)

REASONS FOR GRANTING THE PETITION
It is extremely important for the 5upreme Court to clerify that both state
and federal questions of extraterritoriallity must undergo the two-step test,
and where questions of a tribunal's power to try a case are at issue, a finding
of extraterritoriallity confers none.
Petitioner Rodriguez could not present this case a second time to the lower
federal courts because they ruled him time-barred when he filed his first writ.
And secondly because of the Fifth Circuit Court of Appeals' overbroad and mis­
taken ruling on extraterritoriallity in, Villanueva V. U.S., 743 F.3d 103(5th
Cir.2014) "The Supreme Court has clerified that whether a statute applies extraterritorially is a question'son the merits rather than a tribunal's power to hear
a case." citing Morrison V. Nat'l Austl. Bank Ltd., 13D S.Ct. 2069,2B77(2O1O).
The Supreme Court did not say that. Morrison @2077: But to ask what "conduct"
1D(b) reaches is to ask what conduct 10(b) prohibits, which is a merits question.
Subject matter jurisdiction by contrast refers to a tribunal's power to hear
a case, quoting U.S. V. Cotton, 122 S.Ct. 17B1(2Q02).
The 5th Circuit lumped "conduct" questions with "jurisdiction" questions*
which would forever bar the question of a tribunal's power to hear a case
determined extrateritorial. Jurisdiction could never be questioned.
This Court's ruling in R.J.R Nabisco cites three types of statutes to con­
sider. 136 S.Ct.2090; "There is a two-step framework for analyzing extraterr­
itoriallity issues. At first step the Court asks whether the presumption against
extraterritoriallity has been rebutted-that is, whether the statute gives a
clear, affirmative indication that it applies extraterritorially. The court
must ask this question regardless of whether the statute in question regulates
[conduct], affords [relief], or merely confers[jurisdiction]. The Fifth Circuit's
version would never allow questions confering jurisdiction.
It is clear that both the Fifth Circuit and the Texas Court of Criminal
Appeals is confused as to a court's power to hear a case with forgein aspects,
and how to determine whether they can or cannot. As it is, every case in which
extraterritoriallity is at issue within the Fifth Circuit either has been or
will be decided wrong, as the Texas Court of Criminal Appeals has done.
This Petitioner believes that unlike the Supreme Court decisions on extra­
territoriallity prior to Nabisco that he cited, Nabisco clarified the issue
of subject matter jurisdiction so that the T.C.C.A. could correct their pre-

CD

(9)

viously mistaken view of the difference between territorial and extraterritorial
jurisdiction. It is important that the Supreme Court preserve the integrity of
their decisions and the respect of forgein jurisdictions. It is important also
to protect the Substantive Due Process of all past and future cases by assurring
the incorrect rulings of the Fifth Circuit and The Texas Court of Criminal App^
eals never to be cited as precedence for other cases.

INMATE DECLARATION
I Humberto Rodriguez,Or., do hereby swear under penalty of perjury that
the foregoing statements and documents are true and correct.

/

/-

ON THIS DAY
/

/

Humberto Rodriguez JZr
The Hughes Unit
Rt. 2 Box 4400
Gatesville, TX 76597

(2)

117893

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitte*

/

Date:

7

